                                                                                   February 19, 2014


Major General Kevin R. Wendel
Commanding General, Combined Security Transition
 Command – Afghanistan/Ministerial Advisory Groups

Major General Harold J. Greene
Deputy Commanding General, Combined Security Transition
 Command – Afghanistan

Major General Dean Milner
Deputy Commanding General, Operations
  NATO Training Mission – Afghanistan


Dear Generals Wendel, Greene, and Milner:

I am writing to express my concern that the U.S. may be unwittingly helping to pay the salaries of
non-existent members of the Afghan National Police (ANP). The possibility of “ghost workers” on the
ANP payroll came up several times in the course of my most recent visit to Afghanistan and in recent
discussions with European Union (EU) representatives. I have been encouraged by my recent
conversations with Generals Wendel and Greene who told me that they are taking actions to address
these concerns. These actions specifically include CSTC-A’s decision to strengthen their own
capabilities to perform independent assessments and scrutinize Afghan financial processes. CSTC-
A’s use of “Commitment Letters” may help bolster accountability by stipulating how Ministries
allocate their funds and requiring the use of automated financial and personnel systems; but we
must do more to understand how U.S. funds are flowing through the Afghan banking system,
particularly those used to pay ANP salaries.

The issue of “ghost workers” is not a new issue for SIGAR. In 2011, a SIGAR audit report raised
questions about the United Nations Development Program’s (UNDP) management of the Law and
Order Trust Fund for Afghanistan (LOTFA), which is used to pay ANP salaries. SIGAR auditors found
that neither the Afghan Ministry of Interior nor the UNDP could verify payroll data. SIGAR concluded
that there was “limited assurance that only ANP personnel who worked received pay.”

There is a very significant amount of U.S. taxpayer money at stake in this program. Since 2002, the
international community has contributed $3.17 billion to LOTFA. The U.S. has provided 38 percent of
that amount – approximately $1.21 billion.

These challenges are not limited to U.S. funds. In recent discussions with officials from the European
Commission and the European Anti-Fraud Office about oversight issues, I learned that the European
Union is withholding €100 million (half of its €200 million contribution to LOTFA), due to concerns
about how that money is being used, including the possibility of payments to ghost workers and
other instances of financial mismanagement. I was told the Commission does not intend to release
this funding until proper controls are in place to ensure that LOTFA funds are used as intended.
During my November visit to Afghanistan, I raised the issue of ghost workers and the European
Commission’s concerns with senior CSTC-A officials. None of the officials I met with was aware of any
investigations of ghost workers or the EU’s decision to withhold funds from LOTFA. At the same time,
however, several others I spoke to in Afghanistan expressed concerns about the possibility of ghost
workers. Directly related to this issue, my staff has initiated an audit on the reliability of Afghan
National Security Forces personnel data and how those data are used for Afghan National Army
(ANA) and ANP payrolls. While CSTC-A’s own recent actions are positive steps, I remain concerned
that we lack an adequate understanding and oversight of how U.S. funds flow from LOTFA through
the Afghan banking system to their destination in the hands of legitimate ANSF personnel.

I look forward to an update on the actions you have identified and ask that you provide me with any
evidence you have of this ghost worker and related financial management problems. Additionally, I
ask that you identify any efforts to coordinate with other donors to LOTFA in order to share
information on possible mismanagement of donor funds. If there is significant ghost payrolling or
other mismanagement of these funds, it is not only a waste of money, but reliance on inaccurate
ANP numbers could undermine U.S. transition planning as we continue to withdraw troops from
Afghanistan.

Should you have any questions or need additional information, please contact me directly, or have
your staff contact Jack Mitchell, Director of Special Projects at                             or
                , or Jerry W. Clark, Engagement Manager for Special Projects, at
                               or               .

Thank you in advance for your consideration of this important matter.




                                                                    Sincerely,



                                                                    John F. Sopko
                                                                    Special Inspector General
                                                                     for Afghanistan Reconstruction




SIGAR-14-36-SP Inquiry Letter: ANP Ghost Worker & LOTFA Financial Management                          Page 2
                                      UNCLASSirlED/'FOUO


                                        HEADQUARTERS
                         UNrTEDSTATESFORCES - AFG~STAN
                                    KABUL, AFGHANISTAN
                                          APOAE 09354

USFOR-A DCDR-S                                                                 08 March 20 14


MEMORANDUM FOR United States Central Command (CCTG), MacDiJJ Air Force Base, FL 33621

SUBJECT: United States Forces-Afghanistan (USFOR-A) Input to the SIGAR Letter on ANP Ghost
Worker & Law and Order Trust Fund for Afghanistan (LOTFA) Financial Management, 19 February
2014


1. (U) References:

   a. SIGAR Letter on ANP Ghost Worker & Law and Order Trust Fund for Afghanistan (LOTF A)
Financial Management, 19 February 2014

  b. Combined Security Transition Command - Afghanistan (CSTC-A) Response to SIGAR Letter, 07
March 2014

2. (U//FOUO) 1 have reviewed the referenced SIGAR letter and endorse CSTC-A ' s response.

              Point of contact for this action is LTC Patrick Su!Jivan, USFOR-A CAG Director, at DSN
             or




                                                  -£/ffb...4.~Ak~
                                                   a·o eneral, U.S. Army
                                                   eputy Commander, Support
                                                  United States Forces-Afghanistan

Encls. (2)
l - SIGAR Letter, 19 February 2014
2 - CSTC-A Response, 07 March 2014




                                      lJNCLA ~SlfiED//FOUO
                           COMBI NED SECURITY TRAN~tTION C'O:'vlMANI>- AH.iiiAN I STA~
                                            M Blil.. 1\F(jHA:-.JISTA'\
                                                APO Af 09356




CG CSTC-A                                                                           March 7, 2014


MEMORANDUM THRU

United States Forces - Afghanistan (CJIG), Kabul, Afghanistan, APO AE 09356
United States Central Command (CClG), MacDill Air Force Base, FL 33621

FOR: Special Inspector General for Afghanistan Recenstruction. 2530 Crystal Drive,
Arl'ington, VA 22202-3940

SUBJECT: Payroll Accountability in the Afghan Ministry of Defense (MoD) and Ministry
of Interior (Mof)


1. Thank you for your inquiry regarding accountabitity of members on the· payroll of the
Afghan National Police (ANP). We understand there are potential vulnerabilities in
providing Afghan security ministries Nith direct contributions and we are continuing to
mitigate these potential risks while assisting the Afghan ministerial capabilities to
provide transparency and accountabiHty of international donations.

2. Your concern that we may be pay ng for non-existent members of the ANP has been
raised anecdota~ly over the last several years. CSTC~A is aggressively pursuing this
issue, but has not found evi~ence that -anyone knowingly paid for non-existent workers.
Our review of the payroll process is not complete, and we are continuing to work
diligently with both ministries to establish personnel and resource accountabitity as
automated systems are fully deployed.

3. In November 2013, we deployed    ~ 2 teams to provinc1al headquarters across the
country that are now validating iden~ification (ID) card numbers, issuing ID cards to
trained ANP and civilian personnel, and collecting and updating human resource data in
the Afghan Human Resource Management Information System (AHRIMS).

4. While we have made significant p ·ogress working with the Mol over the last several
years, our recent efforts uncovered discrepancies in the reconciliation of personnel and
payroll records. As shared wijh your staff, we developed and implemented corrective
actions to reconcile approximately 54,000 erroneous personnei iO numbers in the Law
and Order Trust Fund for Afghanistan's (LOTFA) database used by the United Nations
Development Program (UNDP) to m3nage and account for AN P payroll on behalf of
international donor~ . to include the U.S.

5. We have shared our concerns of erroneous ID card numbers with LOTFA, which, as
your letter pointed out, could have facilitated LOTFA unwittingly making payments to
CG CSTC-A
SUBJECT: Payroll Accountability in the Afghan Ministry of Defense {MoO) and Ministry
of Interior {Mol)


non-existent members on the ANP payroll. Based on these concerns , we requested
LOTFA's most recent audit of the Mol payroll and we are working with the largest
LOTFA donors and the U.S. Embassy Kabul to obtain the results.

6. As our Afghan partners develop the abilities to manage and execute resources,
CSTC-A manages the majority of donated funds to ensure proper accountability and
oversight. In order to build Afghan self-sustaining ministerial processes in resource
management. we are working to increase the amount of direct contributions, the funding
provided directly to the Afghans for their security. Our approach is twofold; developing
professional competencies in the Afghan ministries to manage resources while ensuring
transparency, accountability and overstght to assure international donors that their
funds are used effectively.

7. To assure the international comm Jnity regarding the accountability and oversight of
their donations, we implemented a comprehensive Bilateral Financial Agreement. This
agreement, known as the Commitment Letter, stipulates that the MoD and Mol must
allocate their funding at the 5-digit accounting level while requiring the ministries to use
automated accounting systems to provide international transparency and accountability.
To strengthen our oversight, we have stood up our own audit division to perform
independent assessments which place greater scrutiny over the Afghan financial
processes. To enforce accountability, we institutionalized an incremental process that
incentivizes the ministries to correct audit findings and address all audit
recommendations. Initial results of these efforts appear promising.

8. CSTC-A's audit of Mol's Saratan Payroll substantiated three findings and made 14
recommendations. The initial response from the Mol did not address eight of the 14
recommendations. In accordance with the terms of the FY1393 Commitment Letter, the
CSTC-A Review Board proposed withholding some of Mol's FY1 393 funding until all
recommendations are satisfied. Within three days of notification of the potential
withhold of funds, the Mol formally responded to seven of the eight remaining
recommendations. CSTC-A is working very closely with the Ministry of Interior to
address the remaining audit issue w'1ile preparing options regarding future
disbursements of FY1393 funds.

9. CSTC-A disburses funds on an in Jremental basis. CSTC-A has provided the first
increment of FY1393 funding which .:unds Mol's and MoD's most critical items for the
next few months to ensure the AfghC:tn National Police can effectively provide security
for the Afghan Presidential Elections and the start of the fighting season. CSTC-A still
retains the majority of Mol's and MoD's FY1393 funds which would be incrementally
disbursed throughout the rest of this year based on conditions in the commitment letter.

10. Our work is far from complete. We recognize the need for continued self-
assessments and improvement to ensure we are taking all reasonable and prudent
measures to safeguard accountability of U.S. donated funds. In this regard, we

                                             2
CG CSTC-A
SUBJECT: Payroll Accountability in the Afghan Ministry of Defense (MoO) and Ministry
of Interior (Mol)


requested assistance from the Department of Defense Inspector General (DoDIG) to
conduct a comprehensive assessment of how payroll funds are accounted for within the
Afghan financial system. The Do DIG team is on the ground today to help us gain a
clearer understanding of the management of ANA and ANP personnel and payroU;
financiaJmanagement and controfs at all levels; and the process for how U.S. donated
funds flow from Da Afghanistan Ban'( through the Ministries of Finance, Defense, and
Interior until they reach Afghan Naticnal Security Forces soldiers and police peFSonnel.

11. We welcome the opportunity to continue working with you and your staff to ensure
that American taxpayer' and donor nations' funds are used effectively and efficiently to
support the Afghan National Security Forces. Should you have any questions or need
additional information, please contact me directly, or have your staff contact my point of
contact, Colonel John Ulrich at DSN 318-449-1 335, or via e-mail at
john.c.ulrich@afghan.swa.army.mil.



                                               Lll/V__,I
                                              ~VIN R. WEN':J.L'
                                              Major General, US Army
                                              Commanding General




                                             3
